AFFIDAVIT OF SERVICE
SUPREME COURT OF THE UNITED STATES
X
Case No.
Jeremiah F. Manning,
Petitioner,
v.
Lucy J. Kim,
Respondent.
X
STATE OF NEW YORK )
COUNTY OF NEW YORK )
I, Jeremiah F. Manning, being duly sworn according to law and being over the age
of 18, upon my oath depose and say that:
I am the Petitioner in this case.
That on the 15th day of May 2020, I served PETITIONER'S SUPPLEMENTAL BRIEF
in the above-captioned matter upon:
Respondent Lucy J. Kim
148 Goya Road
Portola Valley, CA 94028
by depositing three copies of each, addressed to Respondent at the address above, and
enclosed in a post-paid, properly addressed wrapper, in an official depository maintained
by the United States Postal Service, postage prepaid by Priority Mail Express and that
on the same date as above, I sent to this Court forty copies each of the above-referenced
booklets,plus 1 copy in 8.5x11 inch format, through the United States Postal Service,
postage prepaid by Priority Mail Express.

All parties required to be served have been served.
I declare under penalty of perjury that the foregoing is true and correct.

Execut4 on th.: 7 Day of May 2020

I,

;

eremiah F. Manning

Sworn to and subscribed before me this 15th Day of May 2020
dEREMIAH F. MANNING
Notary Public, State of New Yolk
No. 02MA4766991
Oualified in Albany County
Commission Ex ' March 30, 2022

